No. 20-1761

In the Supreme Court of the United States
SECRETARY PENNSYLVANIA DEPARTMENT OF LABOR AND INDUSTRY,
Petitioner
v.
DELAWARE RIVER JOINT TOLL BRIDGE COMMISSION,
Respondent
CERTIFICATE OF COMPLIANCE
I hereby certify that the Reply Brief in the above case contains 1,290 words
within the meaning of Sup. Ct. R. 33.1. In making this certificate, I have relied on the
word count of the word-processing system used to prepare the document, and I am a
member of the bar of the Court. A copy of this certificate has been served on counsel
for respondent.

s/ J. Bart DeLone
J. Bart DeLone
Chief Deputy Attorney General
Dated: July 29, 2021

